 DEPARTMENT OF HOMELAND SECURITY

         Office of Inspector General


       A Review of Background Checks for
        Federal Passenger and Baggage
              Screeners at Airports




 Office of Inspections, Evaluations, & Special Reviews

OIG-04-08                              January 2004
                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, investigative, and special reports prepared
by the OIG periodically as part of its oversight responsibility with respect to DHS to identify and
prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program, operation,
or function under review. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the best knowledge
available to the OIG, and have been discussed in draft with those responsible for implementation. It
is my hope that this report will result in more effective, efficient, and/or economical operations. I
express my appreciation to all of those who contributed to the preparation of this report.
Contents


  Introduction.................................................................................................................................... 1

  Results in Brief .............................................................................................................................. 1

  Background .................................................................................................................................... 3

  Purpose, Scope, and Methodology................................................................................................. 6

  Designating the Level of Risk and Depth of Investigation for Screener Positions ....................... 7

  Completing Screener Background Checks .................................................................................. 13

  Verifying Citizenship and Personal Identification....................................................................... 27

  Managing the Personnel Security Program.................................................................................. 28

Appendices
  Appendix A:                 Management Comments ................................................................................ 37
  Appendix B:                 OIG Evaluation of Management Comments.................................................. 49
  Appendix C:                 Recommendations............................................................................................56
  Appendix D:                 28 Disqualifying Convictions ....................................................................... 58
  Appendix E:                 Major Contributors to This Report ................................................................ 60
  Appendix F:                 Report Distribution ........................................................................................ 61

Abbreviations
  ANACI                       Access National Agency Check and Inquiries
  ATSA                        Aviation and Transportation Security Act
  BI                          Background Investigation
  BITS                        Background Investigation Tracking System
  CITS                        Clearance Investigations Tracking System
  COR                         Contracting Officer Representative
  CPO                         TSA Credentialing Program Office
  DHS                         Department of Homeland Security
  DOT                         Department of Transportation
  FAIR Act                    Federal Activities Inventory Reform Act
  FBI                         Federal Bureau of Investigation
  FSD                         TSA Federal Security Director
  I-9                         Employment Eligibility Verification Form



                              Review of Background Checks for Federal Passenger and Baggage Screeners at Airports                           Page i
Contents


 MBI       Minimum Background Investigation
 NACI      National Agency Check and Inquiries
 OF 306    Declaration for Federal Employment
 OIG       Office of Inspector General
 OPF       Official Personnel Folder
 OPM       Office of Personnel Management
 SF 85P    Questionnaire for Public Trust Positions
 SF 86     Questionnaire for National Security Positions
 SSBI      Single Scope Background Investigation
 TSA       Transportation Security Administration
 USIS      U.S. Investigations Services




           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page ii
                                                                                                  ISP
OIG                                                                                              Report
Department of Homeland Security
Office of Inspector General

Introduction
                          In response to the September 11, 2001, terrorist attacks in the United States
                          and in recognition of the potential for future attacks, Congress enacted the
                          Aviation and Transportation Security Act, Public Law No. 107-71 (ATSA),
                          which established the Transportation Security Administration (TSA). In
                          February 2002, TSA officially assumed responsibility for civil aviation
                          security functions and, in accordance with ATSA, began the task of hiring
                          federal employees to perform passenger and baggage screening functions
                          previously conducted by private sector employees hired by the aircraft and
                          airport operators.

                          Between February 2002 and December 2002, TSA reviewed an estimated 1.7
                          million applications to hire 55,600 new federal appointees, successfully
                          meeting congressionally mandated deadlines of November 19 and December
                          31, 2002, for replacing commercial passenger and baggage screeners,
                          respectively.1 However, reports surfaced soon afterward that the background
                          checks for screeners, which ATSA requires, were incomplete and possibly
                          flawed. In response to these reports, the Office of Inspector General (OIG)
                          initiated this review of screener background checks.

Results in Brief
                          TSA completed up to four background checks on each of 55,600 screener
                          appointees and thousands of unsuccessful applicants—totaling over 360,000
                          checks.2 Although contractors performed the checks and helped TSA review
                          most results, TSA was responsible for managing the contractors’ work,
                          tracking background check progress and completion, making final suitability
                          decisions, and terminating employees who failed the checks. The deadlines
                          were short, and the scale of hiring was large. Despite contractor support, TSA
                          was not able to manage the background checks in an orderly and consistent
                          manner. We identified many issues that undermined the creation of a reliable
                          federal screener staff that can ensure the security of commercial air
                          transportation.



1
  House Appropriations Subcommittee for Homeland Security, Hearing on TSA Screener Background Investigations,
June 3, 2003.
2
  In May 2003, TSA calculated the following totals for background checks completed: 122,508 fingerprints and 57,173
Access National Agency Check and Inquiries (ANACIs) as of May 16, 2003; and 100,567 ChoicePoint Phase 1 checks
and 84,613 ChoicePoint Phase 2 checks as of March 21, 2003.
Managing the volume of checks overtaxed TSA’s personnel security office.
Screeners were hired, trained, and, in some cases, put to work contrary to
sound personnel security practices and the provisions of ATSA. We found
that:

    •   TSA did not assign an official position risk designation for screeners.
        Consequently, TSA either chose an appropriate, inadequate, or
        excessive level of investigation.

    •   TSA did not maintain control over the quantity, quality, and timeliness
        of background check documentation and processing. TSA did not
        initiate timely final background checks and initiated unnecessary
        background checks on thousands of screeners. TSA’s inadequate
        oversight of its contractors contributed to more than 500 boxes of
        background check documentation remaining unprocessed for months.

    •   TSA allowed some screeners to work without first completing a
        criminal history records check, and retained others with adverse
        background checks for weeks or months while processing the results
        of the background checks and terminations.

    •   TSA’s personnel security office did not: (1) develop a comprehensive
        plan to administer the background checks effectively; (2) have
        sufficient staff to meet workload demands; (3) provide sufficient
        oversight of the contractors’ performance; and (4) develop an adequate
        information tracking system to manage the process.

On June 3, 2003, the House Appropriations Subcommittee for Homeland
Security directed TSA to eliminate the backlog of screener background checks
by October 1, 2003. To meet the deadline and remove unsuitable screeners,
TSA reorganized its personnel security office, added staff and contractor
support, began developing policies, and modified several of its procedures. As
of October 1, 2003, TSA substantially eliminated the backlog of cases.

To improve its management of the background check process, we recommend
that the TSA Administrator:

    1. Assign official position risk designations for all screeners;

    2. Complete the planned comparison of Office of Personnel Management
       and private sector background checks;



Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 2
                              3. Ensure that all screeners pass a fingerprint-based criminal history
                                 records check before beginning training and work;

                              4. Resolve what role contract adjudicators perform and how TSA will
                                 oversee them;

                              5. Improve controls to protect against terminations that are based on
                                 inaccurate information;

                              6. Establish mechanisms to avoid further background checks on
                                 disqualified screeners;

                              7. Strengthen procedures for processing the Employment Eligibility
                                 Verification Form (Form I-9).

                              8. Adopt personnel security management policies and document
                                 departures from them;

                              9. Improve workforce planning and staffing in the Credentialing Program
                                 Office;

                              10. Improve oversight of contract performance and costs;

                              11. Develop accurate, timely, and integrated data on the status of security
                                  investigations; and

                              12. Improve records management policies, procedures, and practices for
                                  the maintenance of personnel security case files.

Background
                         On November 19, 2001, Congress enacted the Aviation and Transportation
                         Security Act, which established the Transportation Security Administration
                         within the Department of Transportation (DOT).3 The ATSA directed TSA to
                         hire federal employees to serve as passenger screeners by November 19, 2002,
                         and baggage screeners by December 31, 2002. TSA met the formidable
                         deadlines, hiring approximately 55,600 screeners.4 During the height of its

3
 TSA became part of the Department of Homeland Security on March 1, 2003.
4
 Counting employees has been an ongoing challenge for TSA due to discrepancies between the figures maintained by
TSA’s hiring contractors, TSA offices, and the Office of Personnel Management.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 3
                           activity in autumn 2002, TSA and its supporting contractors hired
                           approximately 5,000 screeners per week.

                           ATSA requires that screeners undergo a background investigation, including a
                           criminal history records check and a review of available law enforcement
                           databases and records of other governmental and international agencies to the
                           extent determined practicable by the Under Secretary of Transportation for
                           Transportation Security. TSA must ensure that screeners are U.S. citizens and
                           have no convictions within the past ten years for any of 28 specific
                           disqualifying felonies (see Appendix D). In addition, TSA must ensure that
                           screeners are otherwise suitable for employment.

                           TSA did not have an office equipped to meet the responsibilities imposed by
                           ATSA. In 2001, DOT established a “Go-Team” committee for personnel
                           security management to plan and initiate this background check process. With
                           DOT support, TSA began to establish its own Office of Security in March and
                           April 2002, although the checks had already begun. Four months later, in July
                           2002, TSA hired the chairman of the Go-Team to direct the office. The Office
                           of Security assumed full responsibility for personnel security functions in
                           November 2002. Then, in May 2003, TSA moved the personnel security
                           function out of the agency’s administrative branch and established it as part of
                           a new Credentialing Program Office (CPO) under the TSA Chief of Staff.

                           Partly because of its small personnel security infrastructure, TSA relied upon
                           several public and private entities to help administer background checks. TSA
                           obtained their services through a variety of contracts. These entities included
                           the Office of Personnel Management (OPM); ChoicePoint5; Systems Research
                           and Development, a ChoicePoint subcontractor; DynCorp Systems &
                           Solutions LLC; U.S. Investigations Services, Inc. (USIS); and NCS Pearson
                           and its subcontractor PEC Solutions, Inc.6 The pieced-together network lacked
                           an organizational coherence that would have eased TSA’s management
                           responsibilities.

                           NCS Pearson assessed applicants and offered conditional employment;
                           collected and submitted the documentation for the background checks; and
                           maintained the screener staffing rosters used to initiate checks. PEC Solutions,
                           Inc., collected and submitted electronic fingerprints, which OPM checked
                           against national criminal history databases, including that of the Federal
                           Bureau of Investigation (FBI). Using suitability criteria provided by TSA,

5
    In October 2003, Kroll Government Services, Inc., replaced ChoicePoint.
6
    In January 2003, CPS Human Resource Services and Accenture L.L.P. replaced NCS Pearson.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 4
                          DynCorp evaluated the results of background checks conducted by
                          ChoicePoint and OPM checks to make recommendations whether screeners
                          posed an acceptable risk to the government. This evaluation process is known
                          as an “adjudication.” USIS investigated employees as an OPM contractor, but
                          it also supported TSA directly by helping employees complete suitability
                          forms, building electronic and paper personnel security files, and adjudicating
                          cases. Systems Research and Development assisted ChoicePoint by checking
                          applicants against a network of threat indices.

                          OPM timelines for the conduct of background checks would predict that the
                          check for a screener hired in December would be complete by late June. As of
                          May 31, 2003, more than half of the screener pool had at least one check
                          outstanding. In total, 38,065 of 160,515 checks required additional processing
                          or adjudication.7 TSA’s Administrator and supporting contractors agreed
                          before the subcommittee to meet the following deadlines:

                              •    ChoicePoint would complete all of its Phase 1 checks by June 15; and
                                   DynCorp and TSA would adjudicate them by July 1.

                              •    OPM would complete all in-process Access National Agency Check &
                                   Inquiries (ANACIs) by August 15. OPM would complete ANACIs not
                                   yet scheduled within 70 days of receiving the request from TSA.

                              •    TSA, with support from DynCorp and other contractors, would
                                   adjudicate all remaining ANACIs and terminate screeners found
                                   unsuitable by October 1, 2003.

                          ChoicePoint, DynCorp, and OPM projected that they could complete their
                          respective workloads and enable TSA to meet the October 1 deadline if they
                          received cases within agreed upon timeframes. TSA reported that it
                          substantially met the deadlines.8

7
  With 53,505 screeners employed as of May 31, 2003, TSA had a total of 160,515 fingerprint, ChoicePoint Phase 1, and
ANACI checks to complete and adjudicate. Of the 160,515 checks, TSA reported that it had not yet completed 29,700 (1,
015 fingerprint checks, 573 ChoicePoint Phase 1 checks, and 28,112 ANACI checks). In addition to these 29,700
incomplete checks, TSA and DynCorp needed to adjudicate thousands of completed checks. The ChoicePoint Phase 2
checks are not included in these numbers because TSA did not plan to complete the 41,076 outstanding ChoicePoint
Phase 2 checks by the October 1, 2003, deadline. TSA shifted its priorities away from the ChoicePoint Phase 2 checks in
March 2003.
8
  On September 26, 2003, TSA reported to the OIG that it met the October 1, 2003, deadline and had adjudicated all
ANACIs for the 53,505 screeners employed as of May 1, 2003, with two exceptions. The results included 246
incomplete cases for screeners on military leave and extended sick leave and 205 “interim eligible” cases based on
partial ANACIs that OPM must first complete.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 5
Purpose, Scope, and Methodology
              The purpose of our review was to determine whether TSA processed
              background checks of its passenger and baggage screeners in an efficient and
              effective manner and according to applicable laws, federal regulations,
              guidelines, and standards. The scope of our review focused on background
              checks of passenger and baggage screeners and included administrative and
              programmatic activities from November 2001 to August 2003.

              We conducted interviews with staff from TSA, OPM, the Department of
              Justice, and four TSA contractors. At TSA, the combination of newly-arrived
              staff, job reassignments, and recent departures within the personnel security
              office complicated our attempt to gather insight on the full span of TSA’s
              personnel security management efforts.

              We had planned a review of TSA’s personnel security files in order to assess
              the timeliness and effectiveness of different phases of the background checks
              and how well TSA’s hiring process met ATSA requirements. Specifically, we
              had planned to review:

                  •    TSA’s control and approval of forms used for background checks;

                  •    Efficiency of fingerprinting process;

                  •    Length of time to complete background checks;

                  •    Evidence that background checks were satisfactorily completed; and

                  •    TSA’s adherence to adjudication standards.

              However, TSA was in the process of organizing its first personnel security
              filing system, and headquarters files were inconsistent and incomplete. While
              we could not obtain a statistical sample of files, we reviewed a judgmental
              sample of background check documentation. This consisted of background
              check files or loose packets for 255 screeners and the corresponding
              fingerprint checks. Because TSA had not established uniform requirements for
              file content, some of our tests were limited to smaller samples based on the
              information available. We have reported sample size where appropriate.

              We also reviewed 25 Official Personnel Folders (OPFs) to determine whether
              TSA obtained adequate evidence of identity and citizenship. In addition, we


              Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 6
                        compared the results of one airport operator’s checks of screener fingerprints
                        against TSA’s fingerprint adjudications for the same employees, as contained
                        in its Clearance Investigations Tracking System (CITS).

                        Our inspection was conducted under the authority of the Inspector General
                        Act of 1978, as amended, and according to the Quality Standards for
                        Inspections issued by the President’s Council on Integrity and Efficiency, the
                        association of federal Inspectors General.

Designating the Level of Risk and Depth of Investigation for Screener
Positions
                        As an essential first step in planning background checks, agencies evaluate
                        how much risk to the efficiency of the federal service or to the national
                        security is involved in a job position. The evaluation leads to a written
                        position risk designation. The position risk designation guides the decision on
                        what kind of background checks an individual must pass to hold the position.
                        TSA was unable to provide a position risk designation record for screeners.
                        Moreover, TSA has made conflicting statements about which position risk
                        designation it is using for screeners.

                        Risk determinations are based on two assessments. First, the agency assigns a
                        suitability designation; this reflects the degree to which an unsuitable
                        employee could harm the efficiency of federal service. Second, the agency
                        assigns a security designation; this reflects the degree of damage to national
                        security that an employee in a certain position could cause. The security
                        designation corresponds with the level of security clearance an employee may
                        have for access to classified information. Generally, the security designation
                        will determine the level of background investigation, although a higher
                        suitability designation can be the determinant. Thus, while an agency makes
                        two determinations on each position, one will determine the background
                        check requirement. According to the DOT personnel security management
                        policies that TSA adopted, TSA should have solicited input from the
                        personnel security office, Human Resources Office, and Aviation Operations
                        before determining suitability and security designations. 9

                        The following table shows a simplified version of the DOT designations and
                        investigation requirements that applied to TSA during FYs 2002-03:

9
 Personnel Security Management Manual (Department of Transportation Manual 1630.2b, May 30, 2001). The
Department of Homeland Security plans to issue its own policy that will affect TSA in FY 2004.


                         Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 7
                                                                                                                           Cost &
                                                                                                         Minimum
                                                    Suitability and Security                                                Time
                                                                                                       Investigation
                                                      Risk Designations                                                      per
                                                                                                        Required10
                                                                                                                           case11
                             S    Low Risk: Positions that involve responsibilities of limited        National Agency        $85
                             U    relation to an agency or program mission, so the potential for      Check & Inquiries       75
                             I    impact on the integrity and efficiency of the service is limited.        (NACI)           days
                             T    Moderate Risk: Positions with the potential for moderate to
                             A    serious impact on the integrity and efficiency of the service.                            $85
                             B    Includes mid-level positions with responsibility for semi-                NACI             75
                             I    independent action and positions delivering services that                                 days
                             L    demand the public confidence or trust.
                             I    High Risk: Positions with the potential for exceptionally
                             T    serious impact on the integrity and efficiency of the service.                           $2,410
                             Y                                                                          Background
                                  Includes positions with authority for independent action and                              120
                                                                                                      Investigation (BI)
                            SF    positions with law enforcement, fiduciary, public contact, or                             days
                            85P   other duties demanding the highest degree of public trust.
                                  Non-sensitive: Any position that has limited potential for            Investigate according to
                             S    adversely affecting an agency’s national security operations.           suitability designation
                             E    Non-critical Sensitive: Any position with the potential for          Access National         $130
                             C    significant or serious damage to the national security.              Agency Check &           75
                             U    Enables agency to grant confidential and secret clearances.         Inquiries (ANACI)        days
                             R    Critical Sensitive: Any position with the potential for                                    $2,410
                             I    exceptional or grave damage to the national security.                        BI               120
                             T    Enables agency to grant top secret clearances.                                               days
                             Y    Special Sensitive: Any position an agency head determines             Single Scope
                                                                                                                             $2,725
                                  to be at a higher level than Critical-Sensitive due to special         Background
                                                                                                                                120
                            SF    requirements, such as need for access to sensitive                     Investigation
                                                                                                                               days
                            86    compartmented information.                                                (SSBI)


                           TSA staff was unable to provide the position risk designation record for TSA
                           screeners.12 According to the DOT policy, both Aviation Operations and the
                           Human Resources Office should have copies of the position risk designation
                           records. TSA’s position descriptions and vacancy announcements also should
                           reflect the designation. Notwithstanding the absence of this record, we found
                           evidence of four different possible risk designations. In documentation
                           prepared for the June 3, 2003, congressional hearing, TSA reported that the

10
   Ibid.
11
   Costs are based on OPM prices for standard service during FY 2002, the period when TSA planned and began
screener background checks. Time per case is approximate. OPM offers faster service for a fee, but in general, its
investigations have encountered delays over the past two years due to an escalating volume of requests. Investigations
that require field investigation in addition to automated checks, such as the MBI and SSBI, have incurred greater delays.
12
   TSA’s position risk designation record should be DOT Form 1630.2b. For many agency positions, TSA instead used
the position designation record from Appendix B of OPM’s Suitability Processing Handbook. However, TSA staff was
unable to provide either form for screeners.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports                Page 8
                          designation is moderate risk and non-sensitive. Moderate risk is also the risk
                          level that TSA coded on the background check form for screeners, the
                          Questionnaire for Public Trust Positions (SF 85P). A second TSA designation
                          appeared in a July 2003 vacancy announcement for part-time screeners, which
                          increased the security risk from non-sensitive to critical sensitive. Following
                          discussion with OIG inspectors, TSA deleted the critical sensitive designation
                          from the announcement. A third variation appeared in job descriptions posted
                          on the TSA website, which stated that screeners’ duties and responsibilities
                          include “participat[ing] in information briefings concerning security-sensitive
                          or classified information.” The responsibility would require a minimum
                          security designation of non-critical sensitive. A fourth variation was noted in a
                          September 2003 vacancy announcement, which labeled the positions as “Code
                          1 public trust,” an OPM indicator that translates to low risk and non-sensitive,
                          the lowest possible designation.

                          Choosing the Investigation Type

                          TSA’s choice among the low risk, moderate risk, and non-critical sensitive
                          designations has an impact on which background check the agency must
                          conduct. In other words, TSA’s choice between the different types of
                          investigations and supporting forms affected the depth of the background
                          check and thus the level of security provided.

                          If low or moderate risk is the correct designation, TSA could have selected the
                          NACI for screeners and conformed to DOT policy. The ANACI investigation
                          that TSA chose is more intensive than the NACI. The ANACI adds a credit
                          search and a field investigation of local law enforcement records, if the
                          locality does not respond to a written inquiry. Interestingly, OPM
                          recommends a more intensive investigation than DOT for moderate risk
                          positions: the Minimum Background Investigation (MBI), which surpasses
                          both the NACI and ANACI, adds a field investigator’s interview with the
                          subject. The Chief of the Department of Homeland Security (DHS) Personnel
                          Security Division said that DHS plans to require an MBI or a higher level of
                          investigation for all its employees, including the TSA screeners, starting in FY
                          2004. If non-critical sensitive is the correct designation, TSA’s ANACI
                          investigation meets DOT, OPM, and DHS standards, with one qualification.13
                          The ANACI is used across the government for positions designated non-
                          critical sensitive and requiring a security clearance. Agencies typically collect

13
  The DHS Personnel Security Division has proposed non-critical sensitive as the minimum designation for all DHS
personnel in order to ensure all DHS employees are eligible for a secret clearance. DHS will accept the ANACI for
employees investigated before October 1, 2003, according to its draft Interim Personnel Security Directive.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 9
information for the ANACI with the Questionnaire for National Security
Positions (SF 86). However, TSA screeners used the Questionnaire for Public
Trust Positions (SF 85P), which collects less detailed information about the
subject’s foreign activities; relatives and associates; substance abuse history;
and medical, military, court, and police records. With the SF 85P, the
adjudicator receives less information to evaluate when deciding whether the
screener poses acceptable risk to the government. To date, TSA has not
granted security clearances to screeners. If TSA decides in the future to grant
clearances to screeners, each will first have to complete the more detailed SF
86, according to DOT and draft DHS policies.

Costs vary for each investigation type. The cost differences between
performing a NACI, ANACI, or MBI on all TSA screeners are in the millions
of dollars. For 55,600 screeners, the difference between the NACI ($85) and
ANACI ($130) is more than $2.5 million. The MBI ($405) costs about three
times as much as the ANACI, a cost difference exceeding $15.2 million.
Adopting the MBI as a minimum investigation in FY 2004 could create a
significant financial burden for DHS components.

Investigation Options Outside OPM Services

The fingerprint check and ANACI generally met the background check
requirements in ATSA. However, with the help of a contractor, TSA took
another step to reduce the risk that a screener was connected to terrorist
organizations. The contractor, ChoicePoint, added a feature called “link
analysis.” In link analysis, ChoicePoint and its subcontractor Systems
Research and Development compared information from ChoicePoint’s
proprietary database with TSA, FBI, and publicly available terrorist
watchlists. ChoicePoint also helped TSA meet its rapid hiring objectives by
returning results from criminal history and credit checks weeks faster than the
OPM ANACI did.

TSA planned to use ChoicePoint’s Phase 1 check, where ChoicePoint
performed the link analysis, along with OPM’s fingerprint check to eliminate
unsuitable applicants before hiring them. TSA would complete the remaining
two checks on screeners after hiring. A complete background check consisted
of four elements:




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 10
                           Check                      Content                                                  Speed
                           1. OPM fingerprint check   FBI national criminal history records check              2-3 days
                           2. ChoicePoint Phase 1     Name-based proprietary database and local                7-10 days
                                                      criminal history checks; credit check; link analysis
                                                      against selected terrorist watchlist databases
                           3. ChoicePoint Phase 2     Telephonic employment, education, and reference          10-21 days
                                                      checks
                           4. OPM ANACI               National agency records check incorporating              45-70 days
                                                      fingerprint results; credit and local criminal history   or longer
                                                      checks; written employment, education, and
                                                      reference checks; citizenship verification

                          With slight differences, both ChoicePoint and OPM checked the screener’s
                          credit history; local law enforcement records; and education, employment, and
                          references. In August 2002, the current, acting Director of TSA’s CPO and the
                          former Director of the Office of Security notified the TSA Administrator of
                          the duplication between these checks. They proposed that TSA quickly
                          complete a comparison study to determine which provider to use because
                          “TSA does not have the money to pay for ‘duplicate’ investigations or to add
                          the staff required to process, monitor, coordinate, adjudicate, and perform all
                          the related tasks required to run a full-service security office.”14 TSA has not
                          completed the comparison study. In March 2003, TSA shifted its processing
                          emphasis from the ChoicePoint Phase 2 check to the ANACI, but some
                          overlap remains.

                          TSA may be on a collision course with DHS regarding the extent to which it
                          must use OPM investigations. TSA is contemplating ceasing to use OPM
                          services altogether. The central question is whether ATSA exempts TSA from
                          Executive Order 10450, Security Requirements for Government Employment.
                          TSA believes it does. In May 2003, the TSA Office of Chief Counsel wrote
                          that TSA is not required to use OPM investigations. According to ATSA and
                          49 U.S.C. 44936, screeners must undergo “an employment investigation,
                          including a criminal history records check and a review of available law
                          enforcement data bases and records of other governmental and international
                          agencies to the extent determined practicable by the Under Secretary of
                          Transportation for Transportation Security.” TSA interprets this and other
                          portions of its statute to grant the TSA Administrator broad flexibility to
                          determine the scope of screener background checks, including freedom not to
                          use OPM’s services.


14
  Besides increasing costs, the duplicate checks increase the burden on TSA to submit the request paperwork, monitor
the process, and review the results in order to approve or disapprove the screener.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports               Page 11
On the other hand, both DOT policy and the draft DHS Interim Personnel
Security Directive set OPM investigations as their minimum. Their
requirements are based in part on section 3(a) of Executive Order 10450,
which requires agencies at a minimum to conduct national agency checks and
inquiries for all government civilian employees. OPM’s NACI investigation
satisfies this requirement, because it includes a search of OPM’s
Security/Suitability Investigations Index, the Department of Defense
Clearance Investigations Index, and FBI fingerprint- and name-based files.
Private sector background checks do not include these searches, and TSA does
not have the infrastructure in place to collect this information itself. According
to the DHS Personnel Security Division Chief, TSA must meet Executive
Order 10450 standards by conducting the national agency checks.

Whether or not ATSA exempts TSA from the Executive Order, TSA does not
have to avail itself of the exemption. It can enhance the security of its
background check process by taking account of the derogatory information
that national agency checks reveal. However, TSA must first resolve the issue
of what background checks satisfy requirements for the position risk
designation it chooses. It might be possible for TSA to combine private sector
background checks with national agency checks in a way that meets EO
10450 and DHS standards, enhances security, and promotes cost efficiency by
eliminating duplication.

We recommend that the TSA Administrator:

Recommendation 1: Complete screener position risk designations with input
from the personnel security officials of the Department of Homeland Security
and from appropriate TSA offices, including the Credentialing Program
Office, Human Resources Office, and Aviation Operations. Screener position
risk designation records, position descriptions, and vacancy announcements
should reflect the correct designation.

Recommendation 2: Complete the comparison study of the effectiveness of
Office of Personnel Management and private sector background checks.
Incorporating the review’s results, the Administrator should modify screener
background checks as needed to ensure they suit the position risk designation,
meet Department of Homeland Security standards, and are cost-efficient.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 12
Completing Screener Background Checks
             The four background checks that TSA chose fit into a larger framework to
             make up TSA’s background check process. Overall, the process consisted of
             four steps: 1) collecting applicants’ background information; 2) performing
             the four background checks; 3) evaluating the results of the checks to decide
             whether the screener posed acceptable risk to the government (adjudication);
             and 4) disseminating the results so that disapproved employees did not train or
             work. The following table shows generally how TSA and its supporting
             contractors completed the steps:




              Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 13
                 c Collecting                        d Checking                e Evaluating the results of         f Disseminating
                  information                        backgrounds                the checks (adjudication)             the results
               NCS Pearson’s           OPM compared fingerprints with the     Reviewing results through an       After approving
               subcontractor,          FBI’s national criminal history        Internet database, TSA             screeners’ fingerprint
               PEC Solutions,          database and returned results to       adjudicators decided to approve    and ChoicePoint
   OPM
               collected electronic    TSA electronically.                    or disapprove the screener.        Phase 1 checks, TSA
Fingerprint
               fingerprints from                                                                                 requested that the
               applicants and                                                                                    Department of
               sent them to OPM.                                                                                 Transportation print
               Applicants              ChoicePoint used “link analysis” to    ChoicePoint posted cases to an     and deliver access
               completed the SF        compare the screener with selected     Internet database. DynCorp         badges so the
     Choice-   85P, which NCS          terrorist watchlists. ChoicePoint      adjudicated cases as ineligible,   employees could
      Point    Pearson reviewed        also checked the screener against      decisional, or eligible. DynCorp   begin training and
     Phase 1   and sent to             its proprietary database, collected    printed the first two types for    work.
               ChoicePoint as an       local law enforcement records, and     TSA adjudicators to review and     For employees who
               electronic copy.        ran a credit check.                    provide final approval or          failed checks, TSA’s
     Choice-                           ChoicePoint telephoned employers,      disapproval.                       personnel security
      Point                            references, and schools.                                                  office sent written
     Phase 2                                                                                                     requests for
                                                                                                                 termination to TSA’s
               NCS Pearson sent        OPM entered information from the       TSA sent the ANACI packets to
                                                                                                                 Human Resources
               to OPM the              SF 85P into its automated system       DynCorp, which adjudicated
                                                                                                                 Office. The Human
               applicant’s original,   and sent inquiries to local law        them as ineligible, decisional, or
                                                                                                                 Resources Office
               paper copy of the       enforcement agencies, employers,       eligible before returning the
                                                                                                                 wrote and sent
               SF 85P, along with      schools, and others. OPM               packet to TSA. TSA
                                                                                                                 termination letters for
               a copy of the           incorporated the fingerprint results   adjudicators made the final
                                                                                                                 Federal Security
               Declaration for         and ran a credit check. OPM also       decision to approve or
                                                                                                                 Directors to deliver to
      OPM      Federal                 requested records from state           disapprove cases that DynCorp
                                                                                                                 screeners.
     ANACI     Employment (OF          bureaus of vital statistics and the    adjudicated as ineligible or
               306) and                Departments of Defense, State,         decisional. TSA also reviewed      Upon request, TSA’s
               employment              Justice (FBI), and Homeland            some of DynCorp’s eligible         personnel security
               application.            Security (Bureau of Citizenship and    cases. In July 2003, TSA added office compiled and
                                       Immigration Services). OPM mailed      U.S. Investigations Services to sent reports to airports
                                       completed packets to TSA.              adjudicate along with DynCorp. on the status of
                                                                                                                 screener background
                                                                                                                 checks.


                               This process set a more rigorous background check standard than had been in
                               place for screeners. Before TSA established its screener workforce, only the
                               fingerprint check was required.15 TSA used its authority under ATSA to set
                               new standards for screener background checks. As we have described, TSA
                               has argued that it is not obliged to meet standards in OPM’s suitability

15
  Rules issued after 9/11 required the fingerprint check to be conducted routinely. Prior to 9/11, the airlines had to
conduct an employment investigation, and if the results warranted, an FBI fingerprint-based criminal history records
check.


                                Review of Background Checks for Federal Passenger and Baggage Screeners at Airports              Page 14
                         regulations and Executive Order 10450. We have nevertheless referred to
                         these standards in order to illustrate requirements and handling times that are
                         considered reasonable and applicable throughout government. We also refer to
                         the standards set for background checks on the commercial screeners before
                         TSA’s hiring of federal screeners.

                         During the hiring process, TSA gave applicants a conditional job offer,
                         pending approval of background checks. TSA planned to require employees to
                         pass the OPM fingerprint and ChoicePoint Phase 1 checks before beginning
                         training, receiving a badge, and working in the airport. TSA expected these
                         two checks would reduce the risk of employing screeners who had links to
                         terrorist organizations or who had criminal histories covered by the 28
                         disqualifying convictions, while still enabling TSA to meet its November and
                         December 2002 deadlines. TSA and its contractors had originally planned to
                         complete the longer ChoicePoint Phase 2 and OPM ANACI checks after the
                         screener began working in the airport.

                         TSA’s plan for completing the screener background checks could not
                         withstand the increasing volume of background checks. The table below
                         depicts the number of incomplete cases as of May 31, 2003:16

                                                                           Completed                  Outstanding
                          1. FBI fingerprint checks                          52,490                      1,015
                          2. ChoicePoint Phase 1 checks                      51,935                      1,570
                          3. ChoicePoint Phase 2 checks                      12,429                    41,07617
                          4. OPM ANACI                                       18,025                     35,480

                         Some of the outstanding cases consisted of checks that had been conducted,
                         but required adjudication. TSA had a backlog of 7,368 cases to adjudicate,
                         and DynCorp had a backlog of an additional 37,669 cases that had not yet
                         been sent to TSA.

                         Weaknesses in all four parts of the background check process contributed to
                         the number of incomplete cases. First, TSA did not maintain control over the
                         background information its contractors collected and submitted to begin the
                         checks. Submissions inconsistently matched the roster of applicants TSA
                         hired, and many submissions were untimely and of low quality. Second, some
                         check results were neither as rapid nor as definitive as projected. Third, the

16
  We counted checks that required adjudication as incomplete.
17
  In March 2003, TSA changed its priorities to emphasize completing ANACIs rather than ChoicePoint Phase 2 cases.
As of May 31, 2003, 14,442 screener employees had outstanding ChoicePoint Phase 2 checks, and 26,634 had completed
checks that required adjudication.


                         Review of Background Checks for Federal Passenger and Baggage Screeners at Airports    Page 15
                           high volume of checks created backlogs in adjudication. Since the deployment
                           of screeners to airports did not pause, screeners began training and working
                           before TSA reviewed their fingerprint and ChoicePoint Phase 1 checks. To
                           manage the backlog, TSA came to depend on contract adjudicators for whom
                           TSA provided limited oversight. Fourth, TSA headquarters did not notify the
                           Federal Security Directors (FSDs) 18 and airport operators promptly about
                           disqualifications, and screeners who failed checks continued to work. Further,
                           some of the disqualifications were based on inaccurate information, and
                           required that terminated screeners be reinstated.

                           Collecting and Submitting Background Information

                           TSA did not maintain control over the quantity, quality, and timeliness of
                           information collected by contractors and submitted to ChoicePoint or OPM
                           during the critical March-December 2002 hiring period. As a result, TSA’s
                           contractors initiated thousands of unnecessary checks for applicants TSA did
                           not hire, contributing to the backlog in adjudication. Furthermore, TSA’s
                           contractors did not initiate thousands of checks on screeners who were hired.
                           In addition, some background information submissions were untimely and
                           incomplete.

                           NCS Pearson and PEC Solutions collected the SF 85P, OF 306, employment
                           application, and fingerprint chart and forwarded them to ChoicePoint and
                           OPM. As of June 3, 2003, PEC Solutions forwarded 115,331 fingerprint files,
                           including some duplicates, to OPM for the fingerprint checks; and
                           ChoicePoint processed 112,278 ChoicePoint Phase 1 cases. TSA planned to
                           process extra applicants for these two checks because some applicants would
                           fail and drop out of the hiring pool.

                           Since TSA planned to complete ChoicePoint Phase 2 and ANACI checks after
                           hiring screeners, TSA could have controlled the number of those checks by
                           comparing employee rosters with rosters of active investigations, preventing
                           or aborting checks on applicants who were not hired. However, 45,550 of the
                           84,613 ChoicePoint Phase 2 checks, or 54 percent, occurred for applicants
                           who were not on the screener payroll as of May 31, 2003.19 Similarly, 31,780
                           of 57,173 ANACIs, or 56 percent, occurred for applicants who were not
                           employed. We conservatively estimated that unnecessary checks cost TSA
                           more than $7 million.

18
   TSA’s 159 Federal Security Directors and their staffs are responsible for security, including management of the
screener workforce, at over 400 U.S. airports.
19
   Some of these applicants may have been on the payroll before May 31, 2003.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 16
                           Also, TSA did not use the employee rosters to review the status of checks on
                           screeners who were hired. Thus, TSA’s personnel security office did not know
                           whether the four checks were initiated, in process, or complete for screener
                           employees. In February 2003, TSA staff collected over 500 boxes of
                           background check documentation from NCS Pearson, whose contract ended in
                           December 2002. To TSA’s surprise, the boxes contained unsorted, original
                           background check forms for more than 20,000 screeners. NCS Pearson never
                           submitted the forms to OPM, which meant OPM never scheduled thousands
                           of ANACIs. With the help of U.S. Investigations Services, TSA began to
                           identify screeners whose ANACI had not begun and to consolidate, complete,
                           and submit their background check forms. As of June 3, 2003, TSA had not
                           yet initiated ANACIs on 17,506 screeners.

                           With little control over when its contractors submitted background check
                           information, TSA was not timely in initiating the ANACI. The federal
                           standard for initiating an ANACI is within 14 days of hiring; however, as of
                           June 3, 2003, TSA still needed to initiate ANACIs for about a third of its
                           screeners, who had been employed 150 days or longer. Additionally, agencies
                           are required to submit the SF 85P within 120 days of the applicant’s or
                           employee’s signing it, to ensure the information remains current. On average,
                           TSA or its contractor submitted the form within about 50 days, but 3,945
                           forms were submitted late.20 After discovering the forms in the 500 boxes
                           from NCS Pearson, TSA personnel security office staff negotiated with OPM,
                           and OPM agreed to accept outdated forms.

                           Also, TSA did not meet the timeliness standard it set for itself to complete the
                           fingerprint and ChoicePoint phase 1 checks before training screeners and
                           allowing them to work in airports. As of May 31, 2003, TSA had not yet
                           completed fingerprint checks on 1,015 screeners and ChoicePoint Phase 1
                           checks on 573 screeners. As of May 16, 2003, TSA had not performed either
                           check on 146 screeners. The inadequate manner in which TSA’s personnel
                           security office monitored the status of employee investigations contributed to
                           these lapses.

                           Another problem with this phase of the background check process was the
                           poor quality of documentation that NCS Pearson submitted to ChoicePoint
                           and OPM. ChoicePoint ran 16,987 “partial checks” based on incomplete SF
                           85Ps it received from NCS Pearson. OPM rejected as incomplete more than a
                           quarter of the SF 85Ps it received. TSA’s personnel security office did not

20
     Based on 62,936 SF 85Ps submitted from March 2002 to July 2003.


                            Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 17
                           provide sufficient quality control over the SF 85P submission. TSA could
                           have exercised more control over this step by reviewing, signing, and dating
                           the agency portion of the SF 85Ps. However, TSA’s personnel security office
                           did not have an onsite presence at the assessment centers, and TSA allowed
                           NCS Pearson to submit SF 85Ps directly to ChoicePoint and OPM without
                           approving many of them. TSA signed and dated four SF 85Ps out of the 34
                           files in our review that contained at least the front page of the form.21

                           Checking Screeners’ Background

                           The checking portion of the process (fingerprint, ChoicePoint Phase 1 and
                           Phase 2 checks, and OPM ANACI) experienced delays or contained
                           deficiencies that also hindered background check completion. Some
                           fingerprints took longer than usual to process, especially cases involving
                           “unclassifiable” fingerprints. Furthermore, fingerprint results often did not
                           provide information about the outcome of an arrest, which is critical for
                           adjudication. We were unable to verify whether ChoicePoint met its own time
                           standards for processing its checks. We determined, however, that OPM did
                           not always meet its standard for processing ANACIs.

                           The fingerprint check is the first step of the background check and identifies
                           individuals with criminal records in the FBI’s fingerprint-based criminal
                           history database. During the June 3, 2003, congressional hearing, OPM
                           explained that fingerprint checks take two to three days to process. Our file
                           review supported that statement. Of the 250 dated fingerprint checks in our
                           sample, OPM completed 230 within three days. The median time to process a
                           fingerprint check was one day. However, eight of the 250 fingerprint checks
                           took longer than a week to process.22

                           “Unclassifiable” fingerprints, which are too poor in quality to be compared
                           with the FBI’s criminal history database, also delay the fingerprint check
                           process. TSA often did not identify unclassifiable results and re-fingerprint
                           applicants in a timely manner. Our file review showed ten instances in which
                           screeners’ first fingerprints were unclassifiable. TSA took from 132 to 246


21
   As of July 2003, TSA did not have a standard policy for what to retain in the personnel security files. At different
points, TSA retained or discarded the SF 85P. This reduced the number of files in our sample with SF 85Ps.
22
   This delay may have occurred in part because five states do not participate fully in the FBI’s fingerprint-based
criminal history database. Florida, New Jersey, North Carolina, Oregon, and Montana participate in Department of
Justice’s National Fingerprint File program, which allows them to submit only first arrest fingerprints to the FBI and
then maintain all other records at the state level to be shared upon request. Screeners from these states underwent more
time-consuming, name-based FBI checks.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports    Page 18
                         days to re-fingerprint four of these screeners.23 Four other screener employees
                         still had no classifiable fingerprint results on file as of July 16, 2003. The
                         remaining two screeners were separated, having remained employees without
                         re-fingerprinting for 107 and 221 days before their separation. We also found
                         two cases in which screeners appeared never to have been fingerprinted at all;
                         one was still a TSA employee. One cause of these delays was the inability of
                         TSA’s web-based CITS to produce reports of applicants who require re-
                         fingerprinting. TSA recently added a mechanism to CITS that notifies Federal
                         Security Directors of unclassifiable results, so that an FSD can quickly submit
                         new fingerprints.

                         A significant shortcoming of the fingerprint check is the limited depth of
                         information it provides. About 15 percent of the fingerprint check results
                         suggest screeners may have a criminal record.24 But the FBI’s results often
                         show a screener’s arrests without indicating whether the arrest resulted in a
                         conviction, acquittal, dropped charge, or other outcome. The results also do
                         not clearly indicate whether listed crimes, which have different local labels
                         and codes, are among the 28 felonies that preclude screener employment
                         under ATSA. When the disposition of an arrest record is unclear, adjudicators
                         must make inquiries, which add delays and are not always fruitful.

                         In spring 2003, media reports noted that some airport operators, doubting the
                         fingerprint results from TSA’s personnel security office, re-fingerprinted
                         screeners and discovered disqualifying criminal histories among passenger
                         and baggage screeners. We reviewed one set of re-fingerprinting results. For
                         38 screeners whom the airport operator considered to have disqualifying
                         criminal histories, we found 32 fingerprint results that showed arrests without
                         a disposition. TSA’s personnel security office disqualified ten of the 32 after
                         further research. Only one of the 38 records showed a clearly disqualifying
                         conviction, which TSA’s personnel security office also discovered, but not
                         before the airport operator revoked the screener’s access badge.

                         We also attempted to validate the timeliness of ChoicePoint’s and OPM’s
                         checks. ChoicePoint reported that its Phase 1 checks take 7-10 days while the
                         Phase 2 checks take 10-21 days. We were unable to verify this claim. We also
                         examined the time required to complete ANACIs. OPM reported that ANACI
                         cases take 45-70 days to complete. However, less than half of the 208 dated
                         ANACI case files that we reviewed met that standard. The median time to

23
  Two of the four had completed fingerprint checks that were awaiting TSA adjudication for more than 30 days.
24
  Based on 17,702 of 116,261 screener fingerprint checks that OPM reported completing between March 2002 and July
2003.


                         Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 19
process the ANACIs in our sample was 86 days, with cases ranging from 31
to 241 days to complete. OPM reported to the OIG that since June 1, 2003, it
completed over 12,000 ANACIs in an average of 67 days.

Because OPM depends on other federal, state, and local agencies to supply
background information, OPM’s results are dependent on their timeliness.
When OPM completes the bulk of its review but still lacks some responses
from sources beyond its control, it may return the case to TSA as “closed-
pending” and send the remaining information to TSA when available. DOT
personnel security management policies allow TSA to accept closed-pending
cases for adjudication. Most missing information carries little risk of revealing
issues that could disqualify the subject. Of the 211 ANACI-based cases we
reviewed, DynCorp and/or TSA recorded 200 cases as closed-pending when
they adjudicated them. The majority of the cases were missing employer or
reference inquiries. However, we found eight that were missing fingerprint-
based checks or local law enforcement checks, steps that are more critical to
the identification of disqualifying information.

Adjudicating the Results of the Checks

A trained adjudicator must evaluate the information obtained during the
background checks to determine whether the screener is suitable or unsuitable
for federal employment. Specifically, an adjudicator must rule on each of the
four background checks. TSA did not accomplish its objective of approving
the fingerprint and ChoicePoint Phase 1 checks before allowing screeners to
train and work. Despite assistance from contract adjudicators, TSA built up
backlogs and did not meet timeliness standards.

TSA applied OPM’s suitability standards, augmented by ATSA and TSA
guidance, to help adjudicators identify and judge disqualifying criminal
offenses, patterns of offenses, credit issues, and other adverse information.
Two criteria dominate the standards to disqualify applicants: convictions
within the past 10 years for the 28 crimes listed in ATSA, and bad debt in
excess of $5,000. Credit issue cases take longer to adjudicate because the Fair
Credit Reporting Act requires adjudicators to give the applicant or employee
written notice; TSA gives screeners an opportunity to resolve the matter
within 14 days before the adjudicator can make an adverse finding. TSA does
not require its adjudicators to question the applicant or employee about other
adverse information; adjudicators may approve or disapprove the screener
based on the check results alone.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 20
                         Before passenger and baggage screeners became TSA employees, the Federal
                         Aviation Administration’s regulations required aircraft operators to complete
                         a fingerprint-based criminal history check for screeners. For screeners
                         employed prior to December 6, 2001, the aircraft operator had 45 days from
                         receipt of the fingerprint record in which to evaluate potentially disqualifying
                         arrests and to suspend disqualified screeners. For new screeners, the aircraft
                         operator was required to evaluate the potentially disqualifying arrests before
                         allowing individuals to perform screening functions. 25 TSA did not follow
                         these standards while hiring its screener workforce. Of the fingerprint checks
                         we reviewed, about two-thirds of the screeners began working before their
                         fingerprints were adjudicated.26 In addition, ten screeners had criminal records
                         that TSA did not adjudicate within 45 days of receiving the fingerprint results.
                         When fingerprint checks showed criminal records but not clear convictions,
                         TSA conducted further research that sometimes delayed adjudications. TSA
                         adjudicators contacted localities to verify arrest outcomes. They also
                         compared fingerprint results with SF 85Ps to determine whether screeners had
                         falsely answered questions about their criminal histories. However, TSA’s
                         personnel security office did not receive an independent copy of the SF 85Ps;
                         instead, the office waited for copies processed by ChoicePoint and OPM.

                         Additionally, TSA had insufficient staff to adjudicate both fingerprint checks
                         and ChoicePoint Phase 1 checks before hiring new screeners. TSA believed
                         the ChoicePoint Phase 1 check was an important step to reduce the security
                         risk before hiring because the check included link analysis, which compared
                         an applicant’s background data against data from terrorist watchlists. With
                         TSA’s adjudicators focusing on fingerprint checks during the last critical
                         months of hiring, TSA contracted with DynCorp to obtain help processing
                         adjudications. However, TSA did not ensure that the adjudicators completed
                         both reviews, and many ChoicePoint Phase 1 checks were not adjudicated
                         before screeners were hired. DynCorp adjudicated several thousand
                         ChoicePoint Phase 1 checks in February 2003 alone, and almost 1,000 still
                         needed adjudication as of May 31, 2003. This reduced the benefit of the Phase
                         1 check because applicants were hired, trained, and put to work without
                         undergoing the link analysis.

                         As of May 31, 2003, the backlog for employed screeners included 26,634
                         ChoicePoint Phase 2 adjudications and 17,406 ANACI adjudications.27

25
   49 C.F.R. 1544.229.
26
   Based on 131 of 193 cases in which both entry-on-duty and adjudication dates were available.
27
   In March 2003, TSA changed its priorities to emphasize completing ANACIs rather than ChoicePoint Phase 2 cases,
and TSA did not plan to complete the ChoicePoint Phase 2 adjudications for the October 1, 2003, deadline.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 21
                         Because TSA hand-marked on some adjudication sheets the date it received
                         the case from DynCorp, we were able to approximate how long DynCorp took
                         to adjudicate some ANACIs.28 The 130 dated cases in our file review took
                         DynCorp between two and 235 days to return to TSA, with the median time at
                         85 days. DynCorp can complete 400-500 ANACI adjudications per day
                         without building a backlog, if staff is not also processing other TSA
                         adjudications or reports. TSA sometimes instructed DynCorp to focus on
                         certain adjudications to the exclusion of others, such as ChoicePoint
                         adjudications during February and early July 2003, which increased
                         DynCorp’s ANACI backlog. A new, July 2003 contract requires DynCorp to
                         adjudicate ANACIs within 72 hours of receipt at a rate of 400 per day.

                         TSA’s adjudicators also maintained a backlog in processing the cases
                         DynCorp sent to TSA for final review and action. Of the 90 ANACI cases in
                         our file review with dates showing when TSA received the case from
                         DynCorp and when it completed adjudication, TSA completed 53
                         adjudications on the same day as receipt. But 35 adjudications took from
                         seven to 92 days to complete. Our file review showed that the overall time
                         from when OPM completed an ANACI, to when TSA incorporated
                         DynCorp’s work and documented a final adjudication, was between 14 and
                         224 days for 177 dated cases. The federal standard for adjudicating and
                         completing final processing for a background check is 90 days.29 TSA met
                         this standard for 115 of the 177 cases (65 percent).

                         Question of How Much Adjudication Responsibility Contractors May
                         Assume

                         According to the TSA Administrator, TSA intended to make final
                         adjudication decisions for all appointees while its contractors merely assisted
                         in the process. However, we identified cases that TSA did not adjudicate and
                         question whether TSA provided adequate oversight of its contract
                         adjudicators. In March 2003, DynCorp contractors began issuing final
                         decisions for cases adjudicated favorably. DynCorp signed and forwarded to
                         Accenture completed Certifications of Investigation and sent the Report of
                         Agency Adjudicative Action (OFI 79A) to OPM to populate OPM’s Security
                         Investigations Index database.30 Our file review showed instances of this
                         contractor work. Allowing DynCorp to fully adjudicate and document



28
   Our sample did not provide clear information regarding the time to process ChoicePoint checks.
29
   Security Requirements for Government Employment (Executive Order 10450, April 27, 1953); 5 C.F.R. 732.302(b).
30
   Accenture maintains TSA’s Official Personnel Folders for all TSA employees except the executive staff.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 22
                          favorable cases lightened the workload for TSA’s backlogged adjudication
                          staff.

                          In the past, federal agencies have considered making final adjudication
                          decisions to be an “inherently governmental” function that contractors may
                          not perform.31 For example, in a 1999 proposed rule, OPM noted, “With
                          OPM’s Investigations Service privatization effort, OPM has contracted much
                          of its adjudicative case processing, with close OPM oversight. However, OPM
                          has retained all decision making responsibility, which it views as an inherently
                          governmental function.” 32 OPM’s General Counsel continues to support this
                          stance. While TSA was a part of DOT in 2002, the department listed the
                          function code for personnel security clearances and background
                          investigations, which includes adjudication, as inherently governmental on its
                          FAIR Act inventory.

                          In August 2003, the TSA Office of Chief Counsel produced a legal opinion
                          concluding that contractors may complete favorable adjudications as long as
                          TSA completes adverse cases and provides “close agency oversight.” TSA
                          noted that, according to OPM’s draft guidelines, Suitability Overview for
                          Federal Agencies, “Adverse decision making is considered an inherently
                          governmental function and may not be contracted. Agencies will be permitted
                          to contract or re-delegate other portions of the adjudicative process but must
                          ensure they do so with close oversight.”

                          However, TSA has not provided close, consistent oversight of its contract
                          adjudicators. First, although TSA retained final decision-making
                          responsibility for adverse and uncertain cases, which DynCorp reviewed and
                          returned to TSA for completion, we noted two instances where a contractor at
                          TSA headquarters signed the TSA final adjudication sheet for an unfavorable
                          adjudication. Second, TSA’s contracting officer representative does not
                          provide quality checks of the adjudication contractors’ work. Third, TSA’s
                          on-site oversight and quality control has been inconsistent. At first, a TSA
                          representative went to DynCorp once a week to answer questions and review a
                          sample of 100 favorable cases. That is about four percent of DynCorp’s
                          adjudications, which averaged 500 a day. However, TSA’s representative
                          ceased oversight visits for a period of six weeks in May and June before

31
   The Federal Activities Inventory Reform Act of 1998, P.L. No. 105-270 (FAIR Act), defines an inherently
governmental function as “a function that is so intimately related to the public interest as to require performance by
Federal Government employees.” Inherently governmental activities “require either the exercise of discretion in applying
Federal Government authority or the making of value judgments in making decisions for the Federal Government”; and
they include oversight of monetary transactions or entitlements and the appointment of U.S. employees.
32
   “Suitability,” 64 Federal Register 4336, 4337 (proposed January 28, 1999)(to be codified at 5 C.F.R. Part 731).


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 23
                           resuming them in July. For comparison, OPM provides full-time, on-site
                           representatives for its contract adjudicators. Also, DHS Personnel Security
                           Division provides a 100 percent review of contractors’ adjudications.

                           Disseminating the Results of the Checks

                           The adjudication from TSA’s personnel security office determined whether
                           TSA would terminate the employment of screeners whom TSA hired
                           conditionally, pending the completion of a background check. For screeners
                           who failed a background check, the personnel security office advised TSA’s
                           Human Resources Office to draft a termination letter, which Federal Security
                           Directors delivered. However, the notification process did not unfold as TSA
                           envisioned. Screeners who failed checks continued to work in airports.
                           Terminated screeners challenged hundreds of adjudications as erroneous, and
                           TSA reversed many of their terminations upon reconsideration. Finally, TSA
                           allowed OPM to begin or continue checks on screeners that TSA had already
                           disqualified.

                           During the June 3, 2003, congressional hearing, the TSA Administrator
                           reported that, as soon as the adjudicators identified employees as ineligible,
                           TSA removed them from the airport and put them on administrative leave
                           until their terminations were complete. However, TSA staff reported to the
                           OIG that screeners with adverse adjudications continued to work in the
                           airports until TSA delivered termination letters. Only for the most serious
                           cases did TSA staff immediately inform the FSDs to place screeners on
                           administrative leave, according to the draft screener credentialing process map
                           that the TSA Human Resources Office was using in July 2003. Our
                           comparison of the fingerprint check results at one airport and at TSA
                           headquarters confirmed that there were notification delays. For 12 of 13
                           disqualified screeners, it took from 89 to 255 days from the time TSA
                           disapproved the fingerprint check to the time the airport operator deactivated
                           the screener’s badge.33 In four of those cases, TSA’s personnel security office
                           had no record of notifying the FSD or airport operator about the adverse
                           fingerprint results, and the airport operator claims to have removed the
                           screeners through its own initiative. Additionally, in our review of the 255
                           files at TSA headquarters, 23 of 65 disqualified screeners had no recorded
                           separation date. TSA did not meet the federal standard of removing an
                           employee within five work days of making its final decision.34

33
   For the remaining case, the airport operator discovered the screener had a disqualifying conviction and deactivated his
badge before TSA adjudicated his fingerprint check.
34
   5 C.F.R. 731.404.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports    Page 24
                           Another significant issue for TSA during this portion of the background check
                           process was the number of screeners who claimed that TSA terminated them
                           erroneously. From approximately March to July 2003, 309 screeners
                           challenged their terminations. Of the 309 terminated screeners, TSA reinstated
                           129 screeners after further review, reversing its adjudications 42 percent of the
                           time. A second Human Resources Office database shows 40 other
                           reinstatements in addition to the 129, yielding a total of 169.35

                           Were TSA to provide its screeners with the opportunity to explain or refute
                           unfavorable information before termination, the number of reconsiderations
                           would likely decrease. For most of this period, TSA did not have a defined
                           policy for managing screeners’ requests for reconsideration. In August 2003,
                           TSA developed a termination letter that permits screeners to seek
                           reinstatement with back pay if they can disprove the background check
                           findings within ten days. By not providing screeners with an opportunity to
                           contest the adjudication before they are terminated, TSA’s policy contradicts
                           the DOT personnel security management policies that TSA adopted. The DOT
                           manual obligates TSA to “provide all applicants, employees, and contractor
                           personnel the opportunity to explain or refute any unfavorable information
                           before the department uses the information as a basis for any adverse
                           personnel, security, or similar action against them.” [emphasis added]
                           According to the DOT manual, “This practice … prevents errors which might
                           otherwise result from mistakes in identity or erroneous information and
                           provides the applicant or employee the opportunity to present mitigating
                           information that may be unknown to the adjudicating officials.” Not
                           surprisingly, a number of TSA’s reversals have been based on information
                           that screeners provided to show mistaken identity or other errors.

                           TSA also did not have a defined procedure for managing requests for
                           reconsideration. Requests came daily to TSA’s Human Resources Office from
                           FSDs, TSA’s Office of the Ombudsman, and screeners themselves. For the
                           requests that the Human Resources Office began tracking in May 2003, the
                           median time the personnel security office took to re-adjudicate a screener’s
                           request was 24 days, and processing times ranged from 0 to 74 days. Overall,
                           the personnel security office reviewed cases within 72 hours less than 10
                           percent of the time, although this is the adjudication standard TSA set for

35
  In May 2003, TSA’s Human Resources Office began a spreadsheet to monitor requests for reconsideration, and the
309 cases it tracked spanned this period. TSA’s central human resources database has always noted reinstatements;
however, since it does not track the total number of requests made, we could not calculate the rate of reinstatement prior
to May 2003.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports     Page 25
                           itself in “Evaluation and Adjudication Requirements for TSA Screeners to
                           Meet Congressional Deadlines.”36 Terminating screeners based on inaccurate
                           or incomplete information not only affects morale but also takes a toll on both
                           the screeners and understaffed airports as capable screeners wait to return to
                           work.

                           We note one additional administrative weakness in TSA’s notification
                           process. Although OPM’s investigation guidance encourages agencies to
                           discontinue background checks as soon as the agency makes an adverse
                           finding against a person, TSA initiated and continued background checks on
                           screeners who had already failed the fingerprint or ChoicePoint checks.
                           During two of our file reviews, we noted that TSA continued to process
                           ANACIs for 16 of 32 screeners disqualified by a fingerprint or ChoicePoint
                           check (50 percent). Besides adding expense, this practice needlessly increased
                           the processing and adjudication workload.

                           We recommend that the TSA Administrator:

                           Recommendation 3: Ensure, without exception, that all screeners undergo a
                           fingerprint-based criminal history records check and receive a favorable
                           adjudication before they begin training and work.

                           Recommendation 4: Incorporating guidance from the Department of
                           Homeland Security, define the role that contract adjudicators will play in
                           TSA’s background check process and the minimum requirements that TSA
                           must meet to fulfill its oversight responsibilities.

                           Recommendation 5: Institute precautions to protect against terminations that
                           are based on incorrect information.

                           Recommendation 6: Establish mechanisms to prevent and abort background
                           checks on applicants and employees whom TSA disqualifies.




36
  Based on 17 of 274 records with sufficient date information to be assessed (6.2 percent). This figure includes screener
adjudications that TSA both reversed and sustained. For only the cases reversed, resulting in the screener’s returning to
work, the personnel security office completed 11 of 110 dated requests within 72 hours (10 percent).


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports    Page 26
Verifying Citizenship and Personal Identification
                          U.S. citizenship is a job qualification and requires verification before hiring.
                          Prior to August 2002, TSA had little assurance that it was hiring citizens
                          because it was not requiring adequate evidence of citizenship. In August 2002,
                          TSA recognized this problem and its personnel security office added
                          citizenship verification to the ANACI by requiring checks with the
                          appropriate bureaus of vital statistics. To its credit, TSA required the checks
                          for screeners already hired, as well as for new hires.37 This continues as a
                          specific requirement on screener cases referred by TSA for the ANACI.

                          The Immigration Reform and Control Act of 1986 requires all U.S. employers
                          to verify the identity and employment eligibility of those hired to work in the
                          United States after November 6, 1986. Every new employee is required to
                          complete the Employment Eligibility Verification Form (Form I-9). The form
                          requires employees to provide personal identification and attest that they are
                          eligible for U.S. employment, and it requires employers to certify that the
                          identification presented matches the individual who submitted it. When the
                          Form I-9 is completed, the hiring agency must certify and retain it for a
                          minimum of three years.38

                          In a judgmental sample of 25 OPFs drawn from the 255 cases of employees
                          selected for examination of processing data, only 22 had completed the Form
                          I-9. Of the 22, a TSA contractor signed and dated 20. Of the two not signed
                          and dated, both lacked dates and one lacked a signature. Any absent or
                          incomplete forms are troublesome as they reveal flaws in the hiring process.
                          Furthermore, we found 20 Form I-9s for which the applicants presented a
                          combination of a driver’s license and Social Security card or birth certificate.
                          While these documents are authorized for use with the Form I-9, we note that
                          they are all easily counterfeited documents.39 The checks with bureaus of vital
                          statistics that TSA now uses provide more reliable verification of citizenship.
                          While we found no evidence that TSA hired ineligible applicants, we
                          concluded that TSA could improve its procedures for processing the Form I-9.

37
   Since OPM does not automatically verify citizenship status as part of the ANACI, TSA must request the search. OPM
provides this service for $15 per case, to cover the cost of obtaining records from bureaus of vital statistics.
38
   Employers must retain the Form I-9 and make it available for inspection by the Departments of Homeland Security,
Labor, and/or Justice, for three years after hiring employees, or one year after terminating their employment, whichever
is later.
39
   The documents are authorized pursuant to 8 C.F.R. § 2742.2. However, in Counterfeit Identification Raises Homeland
Security Concerns, the General Accounting Office reported that it easily produced or obtained counterfeit birth
certificates, driver’s licenses, and Social Security cards. Government employees and others did not recognize the
counterfeit documents (GAO-04-133T, October 1, 2003).


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 27
                            We recommend that the TSA Administrator:

                            Recommendation 7: Strengthen procedures for completing and retaining the
                            Employment Eligibility Verification Form (Form I-9).

Managing the Personnel Security Program
                            The November 19 and December 31, 2002, deadlines mandated by Congress
                            drove TSA's hiring of passenger and baggage screeners. These deadlines in
                            the ATSA were extremely ambitious, forcing TSA concurrently to establish
                            itself as a new agency and to assess, hire, train, equip, and deploy a new
                            federal screener workforce.40 Although contractors performed the background
                            checks and helped TSA review most results, TSA was responsible for
                            planning and guiding the process; managing the contractors’ work; tracking
                            background check progress and completion; making final suitability decisions;
                            and terminating people who failed the checks. With no comprehensive plans,
                            responsibilities for several other major programs, a limited number of
                            adjudicators, and no comprehensive database or filing system, TSA’s
                            personnel security office was overwhelmed. It could not meet quality and
                            timeliness standards while processing the volume of background checks. In
                            effect, TSA was hiring screeners before it was organized to do so. In the rush
                            to meet the statutory hiring deadlines, TSA abridged management practices
                            and processing requirements normally considered essential to well-managed,
                            established organizations.

                            Planning

                            TSA officials were not prepared to manage the volume of screener
                            background checks. TSA had no comprehensive plan for administering
                            background checks that described how the different participants, resources,
                            policies and procedures, and milestones would intersect to meet security
                            goals. TSA’s planning framework consisted of a few short-term, partial plans
                            that presupposed that the personnel security office would receive additional
                            resources to meet its mission. The policies and procedures consisted of DOT
                            and OPM manuals that TSA selectively followed, sometimes supplemented by
                            TSA guidance. Plans changed as TSA revised its hiring plans to obtain almost
                            twice as many screeners as it originally contracted to hire. Without a guiding
                            framework to unify the personnel security office’s efforts and to indicate


40
     TSA faced ten major deadlines within one year of passage of ATSA.


                            Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 28
                         potential shortfalls, TSA did not keep pace with the background check
                         workload.

                         TSA’s written plans for the background checks consisted of documents that
                         partially discussed or charted operations. For example, we obtained a copy of
                         a five-page August 2002 memorandum that outlined background check
                         procedures and recommended steps to improve checks. The memorandum
                         revealed that aspects of the process, such as how to reduce the duplication
                         between OPM and ChoicePoint services, were unresolved. TSA also provided
                         to the OIG two samples of internal outlines, dated February and March 2003,
                         regarding tasks and issues for the personnel security office.41 However, these
                         outlines focused on short-term solutions to identified problems, such as
                         finding missing security information on screeners. TSA appeared not to have a
                         formal, organizational reference. Furthermore, although the documents
                         addressed the personnel security office’s need for greater staff, contract, and
                         information support, the office received little of the support needed to
                         implement the plans at the time.

                         For carrying out the plans, TSA pointed to OPM and DOT personnel security
                         management manuals as its adopted procedures; however, it is unclear how
                         much DOT or OPM policies and procedures governed personnel security
                         management.42 TSA staff and contractors used a mixture of OPM and TSA
                         guide sheets to manage the results of the background checks. On the other
                         hand, TSA also made exceptions to DOT and OPM guidance by virtue of the
                         broad authority granted under ATSA. For example, TSA did not follow DOT
                         and OPM procedures to complete screener position risk designations, or DOT
                         procedures to grant due process to applicants and employees during
                         adjudication. We did not locate documentation where TSA indicated its intent
                         to depart from adopted practice. TSA staff informed us that internal directives
                         existed but were unable to furnish them.

                         Even if TSA had begun background checks with a clearly stated plan and
                         policy, it probably would have had to alter them. The instability of TSA’s
                         workforce projections partly explains the difficulties TSA encountered while
                         completing background checks. Although TSA originally contracted with
                         NCS Pearson to hire 30,000 screeners, management soon envisioned a need
                         for a much larger workforce to include a more robust checked baggage

41
  “Plan for Going Forward,” (February 26, 2003); later version, March 6, 2003.
42
  On May 6, 2002, DOT delegated to TSA the authority to administer its own personnel security program under DOT
personnel security orders and manuals. Implementing DOT policies in ways different from the orders and manuals would
have required separate approval.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 29
                          screening function. The workforce grew to approximately 55,600 screeners by
                          the end of the first round of hiring on December 31, 2002.43 As TSA revised
                          its workforce estimates, in one manager’s words, “The whole plan
                          changed…the entire methodology and process changed.” TSA initiated
                          numerous modifications to its contracts based on revised workload
                          projections.

                          One clear example of TSA’s poor planning involved the process TSA used to
                          certify that screeners had passed a background check and were approved to
                          begin training and work. TSA planned to adjudicate the results of the
                          fingerprint check, print the screener’s identification badge, and forward it
                          overnight to the airport before the screener could begin training. This
                          management control would prevent disapproved applicants from training,
                          because they would never receive badges. However, TSA inadequately
                          forecasted the logistics it would need to implement the plan. The DOT
                          Badging Office that supported TSA could produce only 200 badges a day, and
                          a backlog arose even before TSA’s hiring accelerated to 5,000 screeners a
                          week. Even if TSA and DOT had accurately forecasted the hiring surge, it is
                          not clear that an operation producing 200 badges per day could have adapted
                          to handle 1,000 per day. With deadlines to train and deploy the screeners, and
                          screeners who needed badges in the airports, TSA instructed airport operators
                          to issue badges independently. This planned solution eliminated the
                          management control, and screeners who had not passed a criminal history
                          records check received badges and went to work. In May 2003, TSA
                          established its own badging unit to regain control over badges issued.

                          TSA staff acknowledged there were significant problems with the
                          administrative elements of the background check process, and TSA is
                          addressing them. The TSA Administrator created a new CPO to continue the
                          administration of the background checks. Senior officials produced a draft
                          charter for the CPO, which recognizes the organizational challenges and
                          provides a foundation for improved operations. The draft charter
                          acknowledges, “To date, these programs have moved forward in a largely
                          uncoordinated fashion. Specifically, organizational alignment around overall
                          TSA strategy, policy development, and resource sharing has not existed to
                          date.” Among its priorities, TSA plans to regain management control of all
                          background checks and build a sufficient organizational infrastructure.
43
  This number continues to fluctuate. First, to meet a ceiling of 45,000 permanent full-time employees set by Congress,
TSA began reducing its workforce by 6,000 during FY 2003, with further cuts contemplated for FY 2004. At the same
time, TSA has been adjusting the distribution of screeners among airports and selectively augmenting its workforce. For
example, in July 2003, TSA announced its intent to recruit 1,300 part-time screeners and 600 permanent full-time
screeners for its mobile National Screening Force.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 30
Personnel

TSA began hiring screeners in March 2002, before it built a personnel security
office to manage their background checks. In July 2002, a month before TSA
began to hire at a pace of 5,000 screeners per week, the TSA personnel
security office consisted of a supervisor, four adjudicators, and a new director.
Personnel security staff correctly predicted that the office was understaffed
and would fall behind schedule. One manager assessed that by August 2002,
the personnel security office had ten staff but needed 50. A year later, TSA
was still working to overcome the processing backlogs caused by staffing
shortfalls.

The screener adjudication workload was a significant burden on the personnel
security office staff, but it was not the only one. Since TSA did not use
contract support to adjudicate fingerprint checks, its staff adjudicated all
screener fingerprint records, plus they planned to review the adjudications
contractors completed for the other checks. As TSA’s hiring accelerated, the
personnel security office could not keep pace with the number of screener
adjudications required. With adjudication backlogs, TSA did not ensure that
staff approved fingerprint and ChoicePoint Phase 1 adjudications before
screeners began training and work. The personnel security office also
accumulated backlogs for ChoicePoint Phase 2 and ANACI checks. By May
31, 2003, TSA’s adjudication backlog was 7,368 screener checks. However, at
the same time, the personnel security office staff was responsible for
completing the background checks for other populations, such as FSDs and
staff, Federal Air Marshals, Federal Flight Deck Officers, Security
Identification Display Area workers, TSA headquarters employees, and
others. TSA developed an additional adjudication backlog for Federal Air
Marshals. Furthermore, in addition to adjudicating, personnel security office
staff compiled status reports on background checks for FSDs and airport
operators, a time-consuming process since the office lacked the capability to
generate automated reports.

As early as August 2002, TSA officials informed TSA senior management
that the personnel security office needed more staff. However, several issues
inhibited the office’s effort to acquire staff. First, all TSA offices were
competing to build up their infrastructure. Second, TSA began FY 2003 under
a continuing resolution, and the absence of a fiscal appropriation limited
TSA’s staffing and spending flexibility for several months. Third, although
Congress gave TSA significant freedom to manage by exempting it from
many personnel requirements, the type of personnel appointments that TSA
could offer under its authority were less competitive in attracting adjudicators.


Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 31
Fourth, turnover disrupted the continuity of personnel security management.
After June 2003, two officials responsible for the personnel security function
left TSA headquarters, and TSA just recently reassigned their responsibilities.
The first director of the new office that oversees personnel security
management, the CPO, departed in July 2003; and TSA had not named a
permanent director.

As of August 2003, the personnel security office had 19 adjudicators. Senior
managers asserted that if needed, more adjudicators were available to help
TSA meet the October 1 deadline. TSA’s personnel security management
responsibilities will increase considerably as the agency adds programs, such
as background checks for alien flight students and hazardous materials
transportation workers. TSA must develop a workforce plan that realistically
projects personnel security workload and staffing requirements to meet these
responsibilities.

Contractor Oversight

With its small personnel security infrastructure, TSA relied heavily on several
contractors and subcontractors to accomplish the screener background checks.
However, TSA had insufficient staff and systems to monitor contractor
performance and spending. Further, frequent tasking changes and contract
growth also made oversight more difficult. Difficulties with contract
management contributed to TSA’s inability to complete background checks.

There was insufficient TSA staff to monitor contractor work. Because of staff
shortages, the responsibilities of Contracting Officer Representatives (CORs)
shifted often, preventing them from serving as a consistent point of authority
on contracts and providing continuous oversight. This also led to confusion
about their authority over contracts. Managers undermined CORs’ efforts to
monitor contractor work by directly tasking the contractor without the CORs'
knowledge. This practice created multiple problems for the COR, chief among
them being whether the COR could effectively review contractor invoices.
CORs reported to the OIG that there were instances where they would not
approve an invoice because it was thinly supported and the CORs were
uncertain what they were paying for.

In addition, TSA did not consistently request or employ status reports to
manage contractors' work. Some contractors provided weekly reports, while
others did not. One key contractor provided few reports, and it did not provide
statistical information we requested. We have reported TSA’s inability to
track and monitor the status of background checks, and given the volume of


Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 32
                         checks, it is inexplicable that TSA did not regularly obtain and use production
                         data from all of its contractors.

                         TSA senior managers and staff were consistent in their remarks that TSA has
                         not effectively managed its contractors.44 Despite contract management
                         weaknesses, TSA intends to continue to rely upon contract support rather than
                         build an infrastructure to replace functions currently performed by contractors.
                         TSA is developing a strategy for acquiring future contractor support, and it
                         plans to improve COR training and delegations of authority.

                         Management Information

                         Until recently, the personnel security office did not have adequate information
                         systems in place to document, track, manage, and report on the status of
                         screener background investigations. One TSA official called the absence of a
                         tracking system “our biggest shortfall.” As of June 3, 2003, TSA had no
                         hardcopy files and no reliable database for screener investigations other than
                         CITS, which tracks only the fingerprint check. Most of the documentation that
                         TSA did possess lay in unsecured boxes of investigation packets, not
                         organized in a manner that enabled TSA to locate a particular individual’s
                         records. The personnel security office’s electronic records consisted of CITS;
                         spreadsheets that adjudicators developed for individual use, which had
                         become corrupted; and an incomplete database replacing the automated
                         spreadsheets, which could not support all TSA’s adjudicators simultaneously.
                         As a result, TSA had no comprehensive picture of the status of investigations,
                         nor did TSA have adequate information to control ongoing investigations or a
                         ready means of reporting on screeners’ checks. These systems were wholly
                         inadequate for TSA to manage the volume of background checks.

                         With contractors and the TSA Human Resources Office controlling
                         employment data, the personnel security office staff had difficulty identifying
                         how many screeners TSA actually employed and how many needed
                         background checks. One TSA official commented that payroll lists did not
                         match contractor processing lists and “It was impossible to figure out how
                         may screeners there were.” Furthermore, the personnel security office had
                         little information about the status of background checks its contractors were
                         performing. For example, the office did not begin comparing OPM's roster of
                         ANACI investigations to TSA’s employee roster until 2003. TSA also did not

44
  Following audits by TSA’s Office of Internal Affairs and Program Review and DOT OIG, TSA reported contract
management as a material weakness in its December 2002 Federal Managers Financial Integrity Act report to Congress
and the Office of Management and Budget.


                          Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 33
have comprehensive status information for cases that the personnel security
office referred to the Human Resources Office for termination. The Human
Resources Office did not begin to maintain data on screeners’ requests for
reconsideration until May 2003; before that, TSA has no information on how
many screeners made requests, only on the number of actual reinstatements.
TSA needs a comprehensive data system that unifies Human Resources Office
data, such as appointments and terminations, with the contractor and
personnel security office data on the status of checks.

Without an integrated, automated system to track all four checks, TSA has no
automatic mechanism to abort checks on screeners who fail an earlier check.
TSA also is unable to abort duplicate checks in some cases. For example,
when ChoicePoint posted results to a website for DynCorp to adjudicate,
ChoicePoint occasionally reposted old cases under new case numbers. This
caused DynCorp to repeat adjudications unnecessarily. TSA was unable to
fulfill DynCorp’s request to resolve the issue.

TSA’s new screener files have inconsistent, incomplete, and unconsolidated
information. Although TSA began hiring screeners in March 2002, it was not
until August 2002 that the personnel security office asked NCS Pearson to
share daily rosters of appointees so that the personnel security office could
create investigative files. Actual file creation did not begin until June 2003.
Furthermore, TSA has not maintained or enforced a standard policy for what
to retain in the personnel security file. During our file review, we found 23 SF
85Ps in 117 completed files; TSA staff explained that the personnel security
office varied its policy on retaining the SF 85P. Of the 117 files, 32 had
missing or incomplete Certification of Investigation forms. Further, we
discovered instances where TSA filed duplicate folders for screeners, which
will confuse efforts to retrieve information from the files. We also noted
instances where TSA filed disqualified screeners in folders color-coded for
qualified ones, and vice versa. Finally, we observed that TSA does not secure
the cabinets and loose files, though they contain sensitive and Privacy Act
information, including criminal histories.

One FSD complained that the TSA personnel security office could not provide
accurate, current status reports for the background checks on screeners. When
FSDs or other TSA staff requested reports on the status of screener
background checks, personnel security office staff compiled the reports by
hand because they lacked the capability to generate them automatically. Even
after populating the two databases in June and July 2003, TSA still compiles
reports on fingerprint checks by hand, assembling individual records that staff
query by Social Security number. This is a time-consuming and labor-


Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 34
                          intensive process. One staff member reported taking two days to research the
                          fingerprint check status of about 1,000 screeners at one airport. Partly because
                          some did not trust TSA’s information or assurances, at least one airport
                          operator began checking screeners independently.

                          By 2003, the personnel security office was aware of the need for a functioning
                          database and filing system in order to manage the amount of background
                          check information. However, when security officials requested financial
                          support to collaborate with the Information Technology Office in establishing
                          a database, management denied the request, citing limited funds. Then, in
                          March 2003, DHS advised components to suspend individual plans to develop
                          personnel security databases in favor of plans for a comprehensive, low-cost
                          system that all components would share.45 Because of its pressing need,
                          TSA’s personnel security office continued to pursue database development. In
                          May 2003, TSA management approved the creation of a database. Shortly
                          after June 3, 2003, management allowed the office to obtain contract support
                          to begin entering data in order to create a more robust database. Contractors
                          also helped TSA begin a paper filing system. However, as contractors nearly
                          completed the database, TSA realized it needed additional information to
                          monitor the screener background checks for the October 1, 2003, deadline;
                          therefore, TSA derived a second database from the first. Neither system tracks
                          the investigations on populations other than screeners, including all other TSA
                          employees, Secure Identified Designated Area workers, Federal Flight Deck
                          Officers, and others.46 The personnel security office staff said that they
                          planned to add this data in the future. TSA will not be able to manage the
                          volume of data involved in these personnel security programs without
                          comprehensive, automated information management systems.

                          We recommend that the TSA Administrator:

                          Recommendation 8: Implement personnel security management policies and
                          procedures and document departures from them.

                          Recommendation 9: Document the Credentialing Program Office workload
                          and then plan and hire staff to meet workload requirements.

45
   After researching this possibility, the DHS Personnel Security Division decided that the proposed system did not meet
the department’s needs. DHS abandoned the plan to require all components to use the same database, and instead it plans
to develop an interface to unify the individual databases components use.
46
   Future background checks required for the full range of existing and planned TSA programs will number in the
millions. The CPO plans to conduct background checks on between three and four million hazardous material
transportation workers. Other credentialing efforts may target merchant mariners, maritime industry workers, Armed
Law Enforcement Officer Credentialing, and the Registered Traveler program.


                           Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 35
Recommendation 10: Ensure that TSA program managers formally
document contract modifications and instructions, maintain a substantive
presence with contractors in order to provide guidance and oversight, and
require status reports to track mission accomplishment.

Recommendation 11: Create a personnel security management tracking
system that provides management with accurate, timely, and integrated
information on the status of security investigations. The information should
reflect the complete cycle of personnel security management, including data
on incoming staff, separations, and reconsiderations.

Recommendation 12: Improve records management policies, procedures, and
practices governing the content, organization, and storage of personnel
security management case files.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 36
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 37
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 38
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 39
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 40
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 41
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 42
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 43
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 44
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 45
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 46
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 47
Appendix A
Management Comments




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 48
Appendix B
OIG Evaluation of Management Comments




The OIG evaluated TSA’s written comments and made changes to the draft
report where deemed appropriate. Below are a summary of TSA’s response to
the report’s recommendations and the OIG analysis of TSA’s response.

Recommendation 1: Complete screener position risk designations with
input from the personnel security officials of the Department of
Homeland Security and from appropriate TSA offices, including the
Credentialing Program Office, Human Resources Office, and Aviation
Operations. Screener position risk designation records, position
descriptions, and vacancy announcements should reflect the correct
designation.

TSA agreed to complete the screener position risk designations and update the
position risk designation records, position descriptions, and vacancy
announcements by mid-January 2004. TSA reported that it has convened a
group with representatives from CPO, Aviation Operations, and Human
Resources Office to complete the designations.

Once complete, these actions will address the bulk of the recommendation.
However, the OIG maintains that TSA should include input from the DHS
Personnel Security Division in selecting the designations in order to ensure
that TSA’s chosen designation does not conflict with DHS guidance. DHS’s
draft Interim Personnel Security Directive sets forth non-critical sensitive as
the minimum designation and the MBI as the standard minimum
investigation. If TSA finds a lesser designation and investigation to be
appropriate, TSA must resolve any conflict with DHS before completing the
screener position risk designations.

Recommendation 2: Complete the comparison study of the effectiveness
of Office of Personnel Management and private sector background
checks. Incorporating the review’s results, modify screener background
checks as needed to ensure they suit the position risk designation, meet
Department of Homeland Security standards, and are cost-efficient.

TSA does not plan to conduct the comparison study as recommended. TSA
stated that the CPO lacks the resources to complete the study; moreover, TSA
believes that checks are currently conducted in the most efficient manner
possible. TSA maintains that the Office of Personnel Management and private
sector background checks are complementary rather than duplicative. TSA


Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 49
Appendix B
OIG Evaluation of Management Comments




stated that the checks serve two different functions, with the private sector
checks providing the rapid information needed to evaluate applicants before
hiring, and the more in-depth OPM checks providing the information needed
to retain screeners hired on a probationary basis. Currently, TSA is examining
alternatives to the OPM ANACI investigation that may prove quicker and less
costly. TSA expects to complete the analysis in early 2004.

The OIG believes that TSA’s examination of ANACI alternatives may satisfy
the intent of this recommendation. For that to occur, TSA’s revised process
should continue to meet the requirement of EO 10450 to conduct national
agency checks and inquiries; should eliminate or justify duplicative checks,
such as two separate credit checks; and should conform to Department of
Homeland Security personnel security standards.

Recommendation 3: Ensure, without exception, that all screeners
undergo a fingerprint-based criminal history records check and receive a
favorable adjudication before they begin training and work.

TSA commented that it is current TSA policy to complete a favorably
adjudicated criminal history records check before offering employment to job
candidates. TSA stated that it has put in place processes, procedures, and
systems to ensure that both fingerprint and preliminary background checks are
complete before candidates are hired. TSA added that the CPO and Human
Resources Office collaborate in administering this process.

The OIG accepts TSA’s response. TSA should describe in its action plan what
processes, procedures, and systems have been established and note which
office holds responsibility for implementing them.

Recommendation 4: Incorporating guidance from the Department of
Homeland Security, define the role that contract adjudicators will play in
TSA’s background check process and the minimum requirements that
TSA must meet to fulfill its oversight responsibilities.

TSA reported that it no longer relies on contractors to conduct adjudications
and that CPO employees now complete the adjudications. Additionally, the
TSA Office of Chief Counsel has advised that contractors may perform initial
adjudications, subject to close oversight by TSA.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 50
Appendix B
OIG Evaluation of Management Comments




The OIG accepts TSA’s response and notes that the Office of Chief Counsel’s
current advice, allowing contractors to make initial and not final adjudication
decisions, brings TSA in line with DHS practice. If TSA resumes use of
contract adjudicators in the future, it will be important for TSA to define its
minimum oversight requirements.

Recommendation 5: Institute precautions to protect against terminations
that are based on incorrect information.

TSA has instituted two measures to guard against erroneous terminations.
TSA has added a quality assurance check for all unfavorable adjudications
before referring the cases to the Human Resources Office for termination. In
addition, CPO will send interrogatory letters to screeners with potentially
disqualifying issues in order to allow screeners to explain, refute, or mitigate
the unfavorable information before CPO recommends termination.

The OIG accepts TSA’s response. In its action plan, TSA should describe the
process, including parties responsible, for conducting the quality assurance
checks on unfavorable adjudications and for handling interrogatory letters and
replies.

Recommendation 6: Establish mechanisms to prevent and abort
background checks on applicants and employees whom TSA disqualifies.

TSA reported that it established and began using mechanisms to abort OPM
background checks on disqualified screeners in mid-summer 2003.

The OIG agrees that aborting OPM background checks on disqualified
screeners will eliminate a substantial amount of unnecessary case processing.
TSA may have a further opportunity to reduce unnecessary case processing by
aborting adjudications on screeners already disqualified by either a
fingerprint-based criminal history records check or ChoicePoint-type check.
The OIG accepts TSA’s response and anticipates reviewing TSA’s latest
procedures in its action plan.

Recommendation 7: Strengthen procedures for completing and retaining
the Employment Eligibility Verification Form (Form I-9).

TSA responded that it has revised its procedures for completing and retaining
the Employment Eligibility Verification Form (Form I-9). TSA is conducting


Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 51
Appendix B
OIG Evaluation of Management Comments




a systematic review to ensure the forms’ completeness as it establishes a new
filing system, separate from the OPFs, for retaining these records.

The OIG accepts TSA’s response. TSA should describe in its action plan the
process and parties responsible for reviewing and filing the Employment
Eligibility Verification Forms. TSA should also note the expected completion
date for the review of previously collected forms.

Recommendation 8: Implement personnel security management policies
and procedures and document departures from them.

TSA stated that the CPO is developing a “standardization guide” that captures
all essential guidelines for screener adjudications, including processes for
initiating and adjudicating screener background checks, performance metrics,
and work standards. TSA also plans to conduct internal audits to ensure
compliance with its documented standards and policies.

The OIG agrees that developing clearer guidelines for screener background
checks, and auditing for compliance with them, are positive steps. However,
the OIG is concerned that TSA’s response does not fully address the
recommendation. Before October 1, 2003, TSA nominally operated under
DOT personnel security management policies, which include a manual that
comprehensively addresses personnel security aspects such as personnel
security responsibilities across the agency, position risk designation methods,
investigation requirements including reciprocity standards, and procedures for
adverse security actions. Adjudication guidelines, like those TSA plans to
develop in response to this recommendation, are also one element contained in
the manual. As the OIG reported, TSA inconsistently followed the DOT
policies and did not document the instances in which TSA chose not to follow
DOT policy.

The OIG holds that the TSA personnel security management program should
operate under guidelines with a breadth similar to DOT personnel security
management policies. Currently, the DHS draft Interim Personnel Security
Directive can provide much of this structure for TSA, but it is incumbent upon
TSA to elaborate how it will implement the general policy. DHS has noted
that component agencies are not prohibited from exceeding the minimum
standards set within the Interim Personnel Security Directive. Screener
adjudication guidelines address one of the personnel security management
areas in which TSA may develop more specific policies to implement the


Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 52
Appendix B
OIG Evaluation of Management Comments




general DHS policy. TSA should describe in its action plan the steps the CPO
is taking to adopt policies and procedures for personnel security management.

Recommendation 9: Document the Credentialing Program Office
workload and then plan and hire staff to meet workload requirements.

TSA responded that the CPO has completed an analysis of its workload. TSA
found that significant, additional personnel and budgetary resources would be
required to meet the office’s multiple program requirements. TSA reported
that the CPO received additional personnel allocations and is working to fill
vacancies. In addition, the CPO continues to measure and document its
workload in order to assist in future resource allocation.

It is not clear to the OIG that TSA’s staffing plans will enable the CPO to
adapt to a high workload, like the one that helped cause the backlog of
thousands of screener background checks. Although it is unlikely TSA will
repeat hiring screeners at such high volume, it is likely that other credentialing
programs, such as background checks for hazardous materials transportation
workers, will cause the CPO workload to swell. In its action plan, TSA should
include the CPO workload analysis and a copy of the hiring plan based on that
analysis.

Recommendation 10: Ensure that TSA program managers formally
document contract modifications and instructions, maintain a substantive
presence with contractors in order to provide guidance and oversight,
and require status reports to track mission accomplishment.

TSA responded that several steps have been taken to improve control over the
work of TSA contractors. Coordinating with the TSA Contracting Office, the
CPO has implemented a policy for documenting contract modifications.
Second, TSA reported that CPO maintains contractor oversight through
meetings, desk audits, and reviewing reports; also, TSA illustrated previous
examples of the onsite assistance to contractors that CPO provided. Finally,
TSA noted that it incorporated performance reporting requirements in its
newly awarded contract with Kroll Government Services, Inc.

The OIG accepts TSA’s response. In support of its action plan, TSA should
provide the OIG with a copy of the policy for documenting contract
modifications and instructions and a copy of the performance reporting
requirements set for Kroll Government Services, Inc. TSA should also explain


Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 53
Appendix B
OIG Evaluation of Management Comments




in greater detail its practices for monitoring the quality of contractor work
related to the background check process.

Recommendation 11: Create a personnel security management tracking
system that provides management with accurate, timely, and integrated
information on the status of security investigations. The information
should reflect the complete cycle of personnel security management,
including data on incoming staff, separations, and reconsiderations.

TSA described the Background Investigation Tracking System (BITS)
database that the CPO developed to consolidate and manage personnel
security information. BITS currently contains information on the screener
background checks, and the CPO is expanding it to incorporate additional
information about CPO workload and status. TSA also stated that it plans to
coordinate its database for tracking security clearances with that of the DHS
Personnel Security Division, a task DHS is requiring of all components.
TSA agreed with the OIG that the CPO needs a comprehensive and integrated
database and tracking system, but TSA stated that it lacks available
informational technology support to provide them.

The OIG acknowledges that over the past few months the CPO has made
significant progress in automating its personnel security information.
However, TSA’s response insufficiently addresses the recommendation. Our
report suggested that many of the weaknesses in tracking the screener
background checks arose from the poor link between Human Resources data,
including that on incoming staff, separations, and reconsideration requests,
and CPO data. The OIG affirms the recommendation that TSA develop a
stronger system for linking this data. If TSA’s informational technology
resources are insufficient to provide a comprehensive solution at this time,
then TSA should pursue an interim solution. In its action plan, TSA should
describe the steps it is taking to ensure that the CPO develops and receives the
information necessary to track and manage personnel security investigations
in an accurate and timely manner, including at a minimum key Human
Resources data.

Recommendation 12: Improve records management policies, procedures,
and practices governing the content, organization, and storage of
personnel security management case files.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 54
Appendix B
OIG Evaluation of Management Comments




TSA stated that it has undertaken a variety of actions to improve the handling
and storage of personnel security files. TSA is developing standards for the
content of personnel security files and quality assurance mechanisms to ensure
the standards are met. TSA also plans to reorganize personnel security files
and to store them securely. Furthermore, TSA noted that it has improved the
handling and storage of disciplinary files containing personnel security
information. With input from the Human Resources Office, TSA revised its
procedures for storing and safeguarding these disciplinary files, and TSA is
auditing them to ensure proper content.

The OIG accepts TSA’s response. TSA should begin securing the personnel
security files at the earliest possible opportunity. Developing standards for the
content of personnel security files will be another important step in improving
TSA’s policies for managing personnel security records. In support of its
action plan, TSA should provide the OIG with a copy of the standards for
content, organization, and storage of the personnel security files. TSA should
also note its timeline for implementing the standards and any quality
assurance reviews or audits planned to ensure the standards are met.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 55
Appendix C
Recommendations




We recommend that the TSA Administrator:

Recommendation 1: Complete screener position risk designations with input
from the personnel security officials of the Department of Homeland Security
and from appropriate TSA offices, including the Credentialing Program
Office, Human Resources Office, and Aviation Operations. Screener position
risk designation records, position descriptions, and vacancy announcements
should reflect the correct designation.

Recommendation 2: Complete the comparison study of the effectiveness of
Office of Personnel Management and private sector background checks.
Incorporating the review’s results, the Administrator should modify screener
background checks as needed to ensure they suit the position risk designation,
meet Department of Homeland Security standards, and are cost-efficient.

Recommendation 3: Ensure, without exception, that all screeners undergo a
fingerprint-based criminal history records check and receive a favorable
adjudication before they begin training and work.

Recommendation 4: Incorporating guidance from the Department of
Homeland Security, define the role that contract adjudicators will play in
TSA’s background check process and the minimum requirements that TSA
must meet to fulfill its oversight responsibilities.

Recommendation 5: Institute precautions to protect against terminations that
are based on incorrect information.

Recommendation 6: Establish mechanisms to prevent and abort background
checks on applicants and employees whom TSA disqualifies.

Recommendation 7: Strengthen procedures for completing and retaining the
Employment Eligibility Verification Form (Form I-9).

Recommendation 8: Implement personnel security management policies and
procedures and document departures from them.

Recommendation 9: Document the Credentialing Program Office workload
and then plan and hire staff to meet workload requirements.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 56
Appendix C
Recommendations




Recommendation 10: Ensure that TSA program managers formally
document contract modifications and instructions, maintain a substantive
presence with contractors in order to provide guidance and oversight, and
require status reports to track mission accomplishment.

Recommendation 11: Create a personnel security management tracking
system that provides management with accurate, timely, and integrated
information on the status of security investigations. The information should
reflect the complete cycle of personnel security management, including data
on incoming staff, separations, and reconsiderations.

Recommendation 12: Improve records management policies, procedures, and
practices governing the content, organization, and storage of personnel
security management case files.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 57
Appendix D
28 Disqualifying Convictions




Pursuant to 49 U.S.C. § 44936(b) and 49 C.F.R. § 1542.209(d), applicants
convicted of one or more of the following 28 felony crimes within the past ten
years are not eligible to serve as screeners:

1. Forgery of certificates, false marking of aircraft, and other aircraft
   registration violation, 49 U.S.C. 46306;
2. Interference with air navigation, 49 U.S.C. 46308;
3. Improper transportation of a hazardous material, 49 U.S.C. 46312;
4. Aircraft piracy, 49 U.S.C. 46502;
5. Interference with flight crew members or flight attendants, 49 U.S.C.
   46504;
6. Commission of certain crimes aboard aircraft in flight, 49 U.S.C. 46506;
7. Carrying a weapon or explosive aboard aircraft, 49 U.S.C. 46505;
8. Conveying false information and threats, 49 U.S.C. 46507;
9. Aircraft piracy outside the special aircraft jurisdiction of the United States,
   49 U.S.C. 46502(b);
10. Lighting violations involving transporting controlled substances, 49
    U.S.C. 46315;
11. Unlawful entry into an aircraft or airport area that serves air carriers or
    foreign air carriers contrary to established security requirements, 49
    U.S.C. 46314;
12. Destruction of an aircraft or aircraft facility, 18 U.S.C. 32;
13. Murder;
14. Assault with intent to murder;
15. Espionage;
16. Sedition;
17. Kidnapping or hostage taking;
18. Treason;
19. Rape or aggravated sexual abuse;
20. Unlawful possession, use, sale, distribution, or manufacture of an
    explosive or weapon;
21. Extortion;



Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 58
Appendix D
28 Disqualifying Convictions




22. Armed or felony unarmed robbery;
23. Distribution of, or intent to distribute, a controlled substance;
24. Felony arson;
25. Felony involving a threat;
26. Felony involving:
        a) willful destruction of property;
        b) importation or manufacture of a controlled substance;
        c) burglary;
        d) theft;
        e) dishonesty, fraud, or misrepresentation;
        f) possession or distribution of stolen property;
        g) aggravated assault;
        h) bribery; or
        i) illegal possession of a controlled substance punishable by a
        maximum term of imprisonment of more than one year;
27. Violence at international airports, 18 U.S.C. 37;
28. Conspiracy or attempt to commit any of the criminal acts listed above.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 59
Appendix E
Major Contributors to This Report




Melissa M. Howard, Ph.D., Chief Inspector
William J. McCarron, Senior Inspector
E. Wynne Krause, Inspector

In addition, Marcia M. Hodges, Senior Inspector, and Meredith Megles,
Senior Inspector, provided valuable contributions to the research for this
report.




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 60
Appendix F
Report Distribution




Department of Homeland Security

    Deputy Secretary
    Under Secretary, Border and Transportation Security
    Chief, Personnel Security Division
    DHS OIG Liaison

Transportation Security Administration

    Administrator, Transportation Security Administration
    Director, Credentialing Program Office
    Director, Human Resources Office
    Director, Aviation Operations
    OIG Audit Liaison, Office of Transportation Security Policy

Office of Management and Budget

    Homeland Bureau Chief
    OIG Budget Examiner

Congress

    Congressional Oversight and Appropriations Committees as appropriate




Review of Background Checks for Federal Passenger and Baggage Screeners at Airports   Page 61
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at (202)
254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or
noncriminal misconduct relative to department programs or operations, call the OIG Hotline
at 1-800-323-8603; write to Department of Homeland, Washington, DC 20528, Attn: Office
of Inspector General, Investigations Division – Hotline. The OIG seeks to protect the identity
of each writer and caller.
